                                                       IG-00-019


                             JOHNSON SPACE CENTER EXCHANGE
                              USE OF APPROPRIATED FUNDS FOR
AUDIT                              EXCHANGE ACTIVITIES
REPORT
                                      March 27, 2000




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at (202)
358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to
the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html


_____________________________________________________________________________

Acronyms

CFO             Chief Financial Officer
FY              Fiscal Year
NPD             NASA Policy Directive
OIG             Office of Inspector General
W                                                                                               March 27, 2000




TO:             A/Administrator

FROM:           W/Inspector General

SUBJECT: INFORMATION: Audit of Johnson Space Center Exchange Use of Appropriated
         Funds for Exchange Activities
         Report Number IG-00-019


The NASA Office of Inspector General (OIG) completed a quality control review of the Sheryl C.
Stanley, P.C., audit of the Johnson Space Center Exchange (Johnson Exchange) fiscal year 1998
Financial Statements.1 During the quality control review, we identified a condition at the Johnson
Exchange involving the use of appropriated funds2 for payment of an Exchange expense, a
nonappropriated fund 3 activity.

The Johnson Exchange inappropriately used $5,800 in appropriated funds to pay for the fee of the
financial statement audit of the Johnson Exchange. Such expenses, which are considered operating
expenses, are the responsibility of the Exchange and should be paid with revenue generated by
Exchange operations. Appropriated funds used for those expenses could have been put to better use.

Background

NASA Policy Directive (NPD) 9050.6E, “NASA Exchange Activities,” dated December 2, 1997,
authorizes Center Directors to establish an Exchange to contribute to the efficiency, welfare, and morale
of NASA personnel. Center Directors are required to appoint an Exchange Council to oversee and
manage the exchange operations in a sound, business-like manner. Exchange-operated activities are
generally self-sustained, that is, supported by nonappropriated funds. The Directive also requires the
Council to obtain annual audits of the Centers’ Exchange

1
  NASA Inspector General final report on “Quality Control Review of Sheryl C. Stanley, P.C, Audit of NASA Johnson Space
Center Exchange Financial Statements for Fiscal Year Ended September 30, 1998,” IG-99-041, dated September 17, 1999.
2
  Federal funds authorized (that is, appropriated) by Congress for an agency’s operations. As required by the United States
Code, appropriated funds may e used only for their intended purpose and for a definite period of time.
3
  Funds received from sources other than congressional appropriations.
                                                                                                                     2

financial statements and to submit the statements and the audit reports to the Center Chief Financial
Officer by December 31 annually.

Recommendation

We recommended that the Associate Administrator for Management Systems ensure that the Johnson
Exchange and all other NASA Exchanges reimburse the Agency for appropriated funds spent on
accounting fees since December 2, 1997, the effective date of NPD 9050.6E, and use nonappropriated
funds to pay for all future operating expenses.

Management Response and OIG Evaluation

Johnson management nonconcurred with the draft report recommendation, which was directed to the
Johnson Exchange only. Management stated that our finding was based on a narrow and inappropriate
interpretation of NPD 9050.6E. Under management’s interpretation of several policy provisions, the
NPD provides the discretionary authority to use appropriated funds for the Exchange’s annual financial
statement audits. In part, management relies on the provision of the NPD that places a responsibility on
the Center Director to operate the Exchange in a business-like manner and authorizes the Center
Director to use appropriated funds for certain Exchange expenses. We disagree because the NPD and
Space Act allow expenditure of appropriated funds only for specific items, that is, for property,
equipment, and maintenance of the property and equipment.

Accordingly, we reaffirm our position on the recommendation. We redirected the recommendation to
the Associate Administrator for Management Systems and included all NASA Exchanges as a result of
management’s comments, supplemented by additional input from the NASA Associate General
Counsel,4 further audit work that identified this same issue at other Centers, and support provided by an
OIG Attorney Advisor. We request that the Office of Management Systems provide comments on the
redirected recommendation.


[original signed by]
Roberta L. Gross

Enclosure

Final Report on Audit of Johnson Space Center Exchange Use of Appropriated Funds
 For Exchange Activities



4
 The Office of the General Counsel issued a memorandum, dated February 17, 2000, supporting NASA management’s position
on using appropriated funds for audit fees.
                 FINAL REPORT
AUDIT OF JOHNSON SPACE CENTER EXCHANGE USE OF
 APPROPRIATED FUNDS FOR EXCHANGE ACTIVITIES
W                                                                                   March 27, 2000


TO:             J/Associate Administrator for Management Systems
                JSC/AA/Director, Johnson Space Center
                JSC/AH/Chairman, Exchange Council

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on the Audit of Johnson Space Center Exchange Use of Appropriated
                Funds for Exchange Activities
                Assignment Number A9906101
                Report Number IG-00-019


The subject final report is provided for your use and comment. Please refer to the Results in Brief
section for the overall review results. Our evaluation of your response is incorporated into the body
of the report. In response to management's comments, we redirected the recommendation to the
Associate Administrator for Management Systems and included all NASA Exchanges. Therefore,
we request management comments on the revised recommendation by April 26, 2000.

If you have questions concerning the report, please contact Mr. Patrick A. Iler, Director, Audit
Quality, at (216) 433-5408, or Ms. Van Tran, Auditor-in-Charge, at (202) 358-0466. We
appreciate the courtesies extended to the audit staff. The final report distribution is in Appendix C.

[Original signed by]
Russell A. Rau

Enclosure
                                               2

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JL/Director, Contractor Industrial Relations
JM/Director, Management Assessment Division
JSC/AH/Exchange Operations Manager
JSC/AL/Chief Counsel
JSC/LA/Chief Financial Officer
                          3


bcc:
AIGA, IG, Reading Chron
GRC/501-9/P. Iler
JSC/281/P. Ritterhouse
W/V. Tran
                                  NASA Office of Inspector General
IG-00-019                                                                                            March 27, 2000
 A9906101

             Johnson Space Center Exchange Use of Appropriated Funds
                             for Exchange Activities


Introduction

The NASA Office of Inspector General (OIG) performed a quality control review of the Sheryl C.
Stanley, P.C., audit of the Johnson Space Center Exchange (Johnson Exchange) fiscal year (FY) 1998
Financial Statements.5 Sheryl C. Stanley, P.C. is a public accounting firm retained by the Johnson
Exchange for the annual financial statement audits. The Johnson Exchange is a Government
instrumentality, operating under NASA’s control for the benefit of Agency employees. During the
quality control review, we identified a condition at the Johnson Exchange involving the use of
appropriated funds6 for payment of an Exchange expense, a nonappropriated fund 7 activity. Appendix
A contains additional details on our objective, scope, and methodology.

Results in Brief

The Johnson Exchange inappropriately used $5,800 in appropriated funds to pay for the fee of the
financial statement audit of the Johnson Exchange. Such expenses, which are considered operating
expenses, are the responsibility of the Exchange and should be paid with revenue generated by
Exchange operations. Appropriated funds used for those expenses could have been put to better use.

Background

NASA Policy Directive 9050.6E, “NASA Exchange Activities,” dated December 2, 1997, authorizes
Center Directors to establish an Exchange to contribute to the efficiency, welfare, and morale of NASA
personnel. Center Directors are required to appoint an Exchange Council to oversee and manage the
Exchange operations in a sound, business-like manner. The Council (hereafter, may also be referred to
as Exchange management) must consist of at least five Center employees who perform their duties
without pay from the Exchange. Council members serve as Chairperson, Treasurer, Exchange
Operations Manager, Secretary, or other advisory capacities. Exchange-operated activities are
generally self-sustained, that is, supported by nonappropriated funds. The Directive also requires the

5
  NASA Inspector General final report on “Quality Control Review of Sheryl C. Stanley, P.C, Audit of NASA Johnson Space
Center Exchange Financial Statements for Fiscal Year Ended September 30, 1998,” IG-99-041, dated September 17, 1999.
6
  Federal funds authorized (that is, appropriated) by Congress for an agency’s operations. As required by the United States
Code, appropriated funds may be used only for their intended purpose and for a definite period of time.
7
  Funds received from sources other than congressional appropriations.
Council to obtain annual audits of the Centers’ Exchange financial statements and to submit the
statements and the audit reports to the Center Chief Financial Officer (CFO) by December 31 annually.

The Johnson Exchange operates and generates revenues from the employee cafeterias, gift shops,
recreation center, and vending concessions. For the year ended September 30, 1998, the Johnson
Exchange reported a cash balance of $2,386,6008 and a net income of $387,173.

Use of Appropriated Funds for Exchange Expenses

Finding. The Johnson Exchange inappropriately used appropriated funds to pay for the audit fee
incurred by the FY 1998 financial statement audit. The Exchange misinterpreted NASA policy, which
limits the use of appropriated funds to cafeteria equipment purchases and repairs. Consequently, the
Exchange was not paying for all operating expenses, and appropriated funds used for those expenses
could have been put to better use.

Use of Appropriated Funds. NASA Policy Directive 9050.6E, paragraph 1.i. states,

         Activities shall generally be supported by nonappropriated funds under the Exchange’s sole jurisdiction.
         Center Directors may authorize use of appropriated funds to provide for cafeterias, purchase and
         maintenance of cafeteria equipment, other facilities, and equipment necessary for Exchange activities, with the
         prior concurrence of the Center Chief Counsel and Chief Financial Officer.


The accounting fee for the FY 1998 financial statement audit was $5,800. As in previous years, the
Johnson Exchange used appropriated funds to pay the audit fees. The Exchange Treasurer explained
that his predecessor made the decision to use appropriated funds for the payment of the audit fee
several years ago. At that time, the Exchange was operated at a loss and did not have enough money to
pay for the annual audit. However, the practice continues because Exchange management
misinterpreted the Directive, which limits the use of appropriated funds for certain capital acquisitions
and repairs only. Further, the Agency has not determined that the accounting fee is a necessary expense
to enhance employee morale which would be required to fully comply with the intent of 31 U.S.C. §
1301(a)9 and related Comptroller General Decisions.10

The annual expense for a financial statement audit is a cost of doing business, that is, an operating
expense, and is a responsibility of the Exchange. Therefore, the Johnson Exchange should have paid
this expense with revenue generated by Exchange operations. Appropriated funds used for the
Exchange’s operating expenses could have been put to better use.




8
 The cash balance includes money market savings accounts and marketable securities.
9
  Title 31, “Money and Finance,” Chapter 13, “Appropriations,” explains that only necessary expenses can be paid with
appropriated funds.
10
   Related decisions include 18 Comptroller General Decision 147 and 27 Comptroller General Decision 679.

                                                               2
Redirected Recommendation, Management’s Response, and Evaluation of
Response

The Associate Administrator for Management Systems should ensure that the Johnson
Exchange and all other NASA Exchanges reimburse the Agency for appropriated funds spent
on accounting fees since December 2, 1997, the effective date of NPD 9050.6E, and use
nonappropriated funds to pay for all future operating expenses.

Management’s Response. Johnson Exchange management nonconcurred with the original
recommendation, which was directed to the Johnson Exchange only, to reimburse NASA for all
appropriated funds previously spent on accounting fees and to use nonappropriated funds to pay for all
future operating expenses. Johnson Exchange management stated that our finding is based on a narrow
and inappropriate interpretation of NPD 9050.6E. Management based its position on the following:

    •   The NPD authorizes the Center’s Exchange Council, not the Exchange Operations Manager, to
        provide for an annual audit of books and records of the Exchange.
    •   The NPD places a responsibility on the Center Director to operate the Exchange and its
        elements in a business-like manner.
    •   While the NDP states that Exchange activities should generally be supported by
        nonappropriated funds, it also authorizes the Center Director to use appropriated funds
        necessary for Exchange activities and provides noninclusive examples appropriate for the
        expenditure of such funds.
    •   The NPD provides the discretionary authority to use appropriated funds for annual financial
        audits called for by the Exchange Council. This position was further substantiated by a
        September 25, 1990, letter from the NASA Comptroller that states in part, “Management and
        oversight of the Exchange … is clearly a proper use of the funds appropriated to the Agency.”

The complete text of management’s comments is in Appendix B.

Evaluation of Response. Management's comments are nonresponsive. We do not agree with the
management view that the NPD, as currently written, provides the discretion to use appropriated funds
to pay for the Exchange’s annual financial statement audit. The fact that the NPD authorizes the
Exchange Council rather than the Exchange Manager to provide for an annual audit of the Exchange’s
books and records is not relevant in determining whether appropriated funds should be used. The
Exchange Manager is a member of the Exchange Council, and like all other Council members, performs
his duties without compensation from the Exchange. The NPD also assigns the Center Director and the
Exchange Council many responsibilities. That alone does not justify using appropriated funds to support
Exchange activities beyond those specifically identified as allowable in the NPD.

We agree that the Center Director should operate the Exchange in a business-like manner. Since
general business practice is to pay normal operating expenses, such as an annual audit fee, from
operating revenues, this further supports our position that the Exchange’s annual audit fee should be


                                                    3
paid from nonappropriated funds. The responsibility to operate the Exchange in a business-like manner
does not authorize the Center Director to use appropriated funds to pay Exchange operating expenses.
In addition, the NPD provision that gives the Center Director authority to use appropriated funds for
certain Exchange expenses does not provide a general authorization and then give examples of expenses
for which appropriated funds can be used. Rather, the provision is specific and restrictive. The NPD
states, “Center Directors may authorize the use of appropriated funds for cafeterias, purchase and
maintenance of cafeteria equipment, and other facilities and equipment and equipment necessary for
Exchange activities, with the prior concurrence of the Center Chief Counsel and Chief Financial Officer
(CFO).” The provision is restricted to real property, equipment, and maintenance of such property and
equipment, which would not include a normal operating expense such as an audit fee. Using
appropriated funds to pay for Exchange audits goes beyond the intent of the NPD provision. This
provision also parallels language in the Space Act of 1958, as amended, which states, “In the
performance of its functions the Administration is authorized…to provide by contract or otherwise for
cafeterias and other necessary facilities for the welfare of employees of the Administration at its
installations and purchase and maintain equipment therefor.” The Space Act also limits appropriated
fund use to property, equipment, and maintenance of the property and equipment.

Management also cited the September 25, 1990, memorandum from the NASA Comptroller as
support for its use of appropriated funds for the audit fee. The memorandum states, in part, that
“Management and oversight of the Exchange which is an instrumentality of the government is clearly a
proper use of the funds appropriated to the Agency.” The statement is merely an assertion. The
memorandum does not include a justification or analysis to support the statement. In addition, the
memorandum also states, “I do want to emphasize that as far as practicable, each NASA Exchange that
conducts programs and charges fees for the use of that program, should include operational costs in the
use of those fees.” This supports our position that the prices charged by the Exchange for the products
and services it offers to employees should be set at a level to cover all operational expenses including
the annual audit fee. Finally, even if the NPD did provide for the discretionary use of appropriated
funds for the Exchange’s annual financial statement audit, we believe that this is not a proper business
practice. We continue to believe that the cost of an annual audit and all other normal operating
expenses are the responsibility of the Exchange and should be paid with nonappropriated funds under
the Exchange’s sole jurisdiction. As the Comptroller General has stated, “[T]he essence of a NAFI
[nonappropriated fund instrumentality] is that it is operated with the proceeds of its activities, rather than
with appropriated funds.”11

We reaffirm our position on the recommendation. We redirected the recommendation to the Associate
Administrator for Management Systems and included all NASA Exchanges as a result of management’s
comments, supplemented by additional input from the NASA Associate General Counsel,12 further audit
work that identified this same issue at other Centers, and support provided by an OIG Attorney
Advisor. We request that the Office of Management Systems provide comments on the redirected

11
     The Comptroller made the statement in 64 Comptroller General Decision 110, 111 (1984).
12
   The Office of the General Counsel issued a memorandum, dated February 17, 2000, supporting NASA management’s position
on using appropriated funds for audit fees.

                                                               4
recommendation. The recommendation is unresolved and undispositioned pending review and
evaluation of management's comments.




                                               5
                  Appendix A. Objective, Scope, and Methodology


Objective

The audit objective was to determine whether the use of appropriated funds for payment of Exchange
operating expenses was appropriate.

Scope and Methodology

We reviewed NASA policies and procedures governing the Exchanges and interviewed Headquarters
officials and Johnson Exchange Council members. We evaluated management controls as they related
to the use of appropriated funds on Exchange activities only. We considered controls to be inadequate
as discussed in the finding. We did not use or rely on any computer-generated data during the audit.

Audit Field Work

We performed the audit from October through December 1999 at Headquarters and Johnson Space
Center in accordance with generally accepted government auditing standards.




                                                  6
Appendix B. Management’s Response




               7
Appendix B




             8
                             Appendix C. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
J/Associate Administrator for Management Systems
JL/ Director, Contractor Industrial Relations
JM/Director, Management Assessment Division

NASA Center

Director, Johnson Space Center
 Chairman, Exchange Council, Johnson Space Center
 Exchange Operations Manager, Johnson Space Center
 Chief Counsel, Johnson Space Center
 Chief Financial Officer, Johnson Space Center
Chief Counsel, Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space




                                                   9
Appendix C

Chairman and Ranking Minority Member - Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                                 10
                   NASA Assistant Inspector General for Auditing
                                  Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.

Report Title: Johnson Space Center Exchange Use of Appropriated Funds for Exchange
              Activities

Report Number:                                            Report Date:


Circle the appropriate rating for the following statements.


                                                          Strongly                              Strongl
                                                           Agree     Agree   Neutra   Disagre   y         N/A
                                                                               l         e      Disagre
                                                                                                   e
1.   The report was clear, readable, and logically           5         4       3         2         1      N/A
     organized.
2.   The report was concise and to the point.                5         4       3         2         1      N/A
3.   We effectively communicated the audit objectives,       5         4       3         2         1      N/A
     scope, and methodology.
4.   The report contained sufficient information to          5         4       3         2         1      N/A
     support the finding(s) in a balanced and objective
     manner.


Overall, how would you rate the report?

     ÷   Excellent                          Fair
         Very Good                          Poor
         Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

     Yes: _______                               No: __________

     Name: ________________________

     Telephone: _____________________


Thank you for your cooperation in completing this survey.
Major Contributors to This Report

Patrick A. Iler, Director, Audit Quality

Van Tran, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager
